                                                                 Issue Date
                                                                              July 17, 2007
                                                                 Audit Report Number
                                                                              2007-CH-1009




TO:        Robert E. Nelson, Director of Public Housing Hub, 5FPH


FROM:      Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The Boyne City Housing Commission, Boyne City, Michigan, Failed to Follow
           HUD’s Requirements for Its Nonprofit Development Activities

                                   HIGHLIGHTS

What We Audited and Why

            We audited the Boyne City Housing Commission’s (Commission) nonprofit
            development activities. The review of public housing authorities’ development
            activities is set forth in our fiscal year 2006 annual audit plan. We selected the
            Commission because it was identified as having high-risk indicators of nonprofit
            development activity. Our objective was to determine whether the Commission
            diverted or pledged resources subject to its annual contributions contract
            (contract), other agreement, or regulation for the benefit of non-U.S. Department
            of Housing and Urban Development (HUD) developments.

What We Found

            The Commission, under the direction of its former executive director, defaulted
            substantially on its contract when it improperly pledged resources for the benefit
            of the Boyne City Nonprofit Housing Corporation (Corporation) and the Boyne
            City Housing Commission Limited Dividend Housing Association Limited
            Partnership (Limited Partnership), organizations created by the Commission,
            without HUD approval. The Commission obtained two bank loans to purchase
            13.47 acres of land. The loans’ promissory notes included a provision that allows
            the bank to setoff the amounts owed on the loans against any and all accounts the
           Commission has with the bank. As of April 2007, the Commission owed more
           than $137,000 on the two loans.

           The Commission failed to file a declaration of trust on the land to protect HUD’s
           interest and to prevent a conveyance or encumbrance without HUD approval. It
           also did not obtain HUD’s approval to sell 4.82 acres of the land at more than
           $51,000 below fair market value. Further, the Commission managed Deer
           Meadows, a 30-unit senior housing project receiving Section 8 housing assistance
           from the Commission that the Limited Partnership owns and the Commission
           performed unit inspections, thus creating a conflict of interest.

           We informed the Commission’s executive director and the director of HUD’s
           Detroit Office of Public Housing of minor deficieincies through a memorandum,
           dated July 11, 2007.

What We Recommend

           We recommend that the director of HUD’s Detroit Office of Public Housing
           require the Commission to amend its promissory notes to eliminate the setoff
           provision to prevent the seizure of the Commission’s funds in case of default on
           the notes; file a declaration of trust on the remaining land to protect HUD’s
           interest; reimburse the applicable program for the sale of part of the land at below
           fair market value, and the improper Section 8 administrative fees received related to
           Deer Meadows; contract with an independent third party to perform housing
           quality standards inspections of Deer Meadows as required by HUD; and
           implement adequate procedures and controls to address the findings cited in this
           audit report. We also recommend that the director refer the Commission’s
           substantial default of its contract to HUD headquarters and request appropriate
           action be taken against the Commission.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06 REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response

           We provided our discussion draft audit report to the Commission’s executive
           director, its board president, and HUD’s staff during the audit. We held an exit
           conference with the executive director on June 19, 2007.

           We asked the executive director to provide comments to our discussion draft
           report by July 2, 2007. The executive director provided written comments, dated
           July 2, 2007. The executive director generally agreed with our findings and

                                             2
recommendations. The complete text of the written comments, except for eight
attachments that were not necessary to understand the comments, along with our
evaluation of that response, can be found in appendix B of this report. We
provided the director of HUD’s Detroit Office of Public Housing with a complete
copy of the Commission’s written response plus the eight attachments.




                                3
                            TABLE OF CONTENTS

Background and Objective                                                          5

Results of Audit
      Finding 1: The Commission Substantially Defaulted on Its Contract When It
                 Obtained Loans That Included Setoff Provisions                   7
      Finding 2: The Commission Did Not File a Declaration of Trust and
                 Inappropriately Disposed of Project Assets                       10
      Finding 3: The Commission Violated HUD’s Section 8 Requirements             12
                 Regarding Its Nonprofit

Scope and Methodology                                                             15

Internal Controls                                                                 16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use              18
   B. Auditee Comments and OIG’s Evaluation                                       19
   C. Federal Requirements                                                        26




                                            4
                      BACKGROUND AND OBJECTIVE

The Boyne City Housing Commission (Commission) is a public housing agency established by
the City of Boyne City, Michigan (City), on January 30, 1967, with the responsibility of serving
the need for affordable housing. The Commission entered into contracts with the U.S.
Department of Housing and Urban Development (HUD) and the State of Michigan. Under its
annual contribution contract (contract) with HUD, the Commission operates 80 units of
subsidized housing in the City for its Public Housing program. Under a separate contract with
HUD, the Commission manages a Section 8 Housing Choice Voucher (Section 8) program with
subsidies for 60 vouchers for qualifying low- and moderate-income households. The
Commission also manages a transitional housing program with four units through the Michigan
State Housing Development Authority (Authority). Funds from HUD’s Supportive Housing
Program fund the transitional housing program.

On April 8, 1997, the Commission obtained approval from the City to waive its payments in lieu
of taxes for the specific purpose of financing the purchase of land adjacent to its existing Public
Housing development. The City’s approval included a provision that the payments would
resume once the financing was paid in full. In 1997, the Commission sent letters to HUD’s
Grand Rapids and Milwaukee field offices explaining the Commission’s proposal to purchase the
land by obtaining a bank loan(s) and use the funds from the waived payment in lieu of taxes to
repay the loan(s). The Commission also disclosed its intention to use the waived funds in its (1)
annual public housing agency plans for 2000 to 2003; (2) five-year plan for 2000; (3) annual plan
updates for the years 2001, 2002, and 2003; and (4) annual audit reports for 1997 to 2005.

In a letter, dated June 6, 1997, HUD approved the Commission’s proposal to use the waived
payments; however, it expected the land would be added to the Commission’s contract with
HUD. The City amended its ordinance for the Commission in June 1997 by eliminating the
payments as long as the land continued to be tax exempt. In July 1997, the Commission
purchased the land (13.47 acres) by obtaining two promissory notes. As of April 2007, the
Commission was using the funds waived by the City to pay the principal and interest on the
notes with Huntington National Bank (Bank) (see findings 1 and 2).

During March 2000, the Commission submitted an application for a low-income housing tax
credit development for seniors to the Authority. The Authority approved the application and
offered a commitment in October 2000. The Commission formed both the Boyne City Nonprofit
Housing Corporation (Corporation) and the Boyne City Housing Commission Limited Dividend
Housing Association Limited Partnership (Limited Partnership). The Corporation is the general
partner of the Limited Partnership and is also a nonprofit entity. Both the Corporation and the
Limited Partnership are affiliated entities of the Commission.

The Limited Partnership owns Dear Meadows, the 30-unit senior housing development that
receives Section 8 housing assistance. Deer Meadows is located on 3.62 acres of land that the
Commission purchased (part of the 13.47 acres) and later sold to the Limited Partnership in
November 2000 (see finding 2). Deer Meadows’ construction was completed in December
2001. From initial occupancy in 2001 through June 2004, Deer Meadows was managed by an

                                                5
independent management agent. The Commission initially obtained the services of the agent to
setup the rent roll and manage Deer Meadows. In July 2004 after the management agreement
expired, the Commission took over on-site management and started charging Deer Meadows
monthly management and maintenance fees (see finding 3). The financial statements of the
Limited Partnership are accounted for separately and audited separately on a calendar year basis
by a different independent certified public accountant than that of the Commission.

A five-member board of commissioners, appointed by the City’s manager, governs the
Commission. HUD placed the Commission on its list of troubled agencies in 2006 after its fiscal
year 2005 financial statements were received late and received no financial score. However,
HUD reclassified the Commission as a standard performer on January 18, 2007, after acceptance
of its fiscal year 2006 unaudited financial statements. The Commission’s books and records are
located at 829 South Park Street, Boyne City, Michigan.

Our objective was to determine whether the Commission diverted or pledged resources subject to
its contract, other agreement, or regulation for the benefit of non-HUD developments.




                                                6
                                 RESULTS OF AUDIT

Finding 1: The Commission Substantially Defaulted on Its Contract
       When It Obtained Loans That Included Setoff Provisions
The Commission substantially defaulted on its contract when it obtained loans that contained
setoff provisions. The Commission signed two promissory notes with the Bank to purchase the
13.47 acres of land. The notes included a setoff provision that allows the Bank to seize the
Commission’s accounts with the Bank if it defaults on the loans. The improper pledging of the
Commission’s accounts occurred because the Commission lacked adequate procedures and
controls to ensure that it complied with its contract. As a result, the Commission’s assets would
be subject to seizure in the event of default and more than $137,000 was due on the notes as of April
2007.


 The Promissory Notes Included
 a Setoff Provision


               In July 1997, the Commission signed two promissory notes with the Bank to
               finance the purchase of land adjacent to its existing elderly Public Housing
               project. The appraised value of the land was $225,000; however, the Commission
               obtained two loans totaling $240,000 for the land. The Bank financed the loans
               for $15,000 more than the appraised value because the proposed use of the
               property was for community reinvestment purposes. According to the vice
               president and a handwritten note by the loan officer for the Bank, the planned
               improvements during the next five years would enhance the land value and the
               intended use of the property would benefit the City’s low-to-moderate income
               residents. The Commission used the $15,000 to pay expenses related to the land
               purchase.

               Both loans were for five years with irregular interest and principal payments. The
               final payments for the loans were due in 2002. In October 2002, the Commission
               refinanced the loans to include fixed monthly principal and interest payments.
               The terms and conditions of the initial and refinanced promissory notes contained
               a setoff provision that allows the Bank to collect the amounts owed from all of the
               Commission’s accounts, including accounts held jointly and any future accounts
               with the bank, if the Commission defaults on the loans.




                                                 7
The Commission’s Accounts
Are Subject to Seizure


           The inclusion of the setoff provision in the terms of the promissory notes puts the
           Commission’s assets at risk. As of April 30, 2007, the Commission owed
           $137,079 on the two loans and had eight accounts with the Bank. Of the eight
           accounts, five were held jointly. The combined funds in the five accounts totaled
           $91,845. Further, the Commission anticipates receiving more than $411,000 in
           HUD funds (Public Housing, Public Housing Capital Fund, and Section 8) for
           fiscal year 2007. Upon receipt, these funds will be deposited in the Commission’s
           accounts with the Bank. If the Commission defaults on the two loans, more than
           $137,000 in HUD funds is subject to seizure as of April 2007.

The Commission Lacked
Adequate Procedures and
Controls

           The improper pledging of the Commission’s accounts occurred because the
           Commission lacked adequate procedures and controls to ensure that it complied
           with its contract. The former executive director said that he did not consider that
           the land purchase to be subject to the terms and conditions of the contract with
           HUD. Therefore, he did not submit the promissory notes to HUD for prior review
           and approval. As a result, the Commission’s assets of more than $137,000 are at
           risk of seizure and it would have fewer funds available to operate its various HUD
           programs in case of default on the loans.

           If the Commission implements adequate procedures and controls to ensure
           compliance with HUD’s contract, we estimate that $24,000 will be protected from
           improper pledging of the Commission’s accounts. We determined this amount by
           dividing $240,000 (land purchase price) by 10 years (land purchased in 1997) and
           limited our estimate to one year to remain conservative.

Recommendations

           We recommend that the director of HUD’s Detroit Office of Public Housing require
           the Commission to

           1A.    Amend its promissory notes to remove the setoff provision or obtain new
                  promissory notes without the provision to protect the Commission’s assets
                  from seizure to payoff the $137,079 owed on the two promissory notes as of
                  April 2007.




                                            8
1B.    Submit the revised or new promissory notes to HUD for review and approval
       to ensure that they comply with its contract.

1C.    Implement adequate procedures and controls to ensure that its loan
       provisions do not include setoff provisions that subject the Commission’s
       assets from seizure. These procedures and controls should help to ensure
       that an estimated $24,000 is used appropriately for future land
       acquisitions.

We also recommend that the director of HUD’s Detroit Office of Public Housing

1D.    Refer the Commission’s substantial default of its contract to HUD
       headquarters and request that appropriate action be taken against the
       Commission based upon the information in this audit report (see findings 1
       and 2).




                                 9
Finding 2: The Commission Did Not File a Declaration of Trust and
              Inappropriately Disposed of Project Assets
The Commission failed to file a declaration of trust on the 13.47 acres of land purchased in July
1997. Further, it inappropriately sold 4.82 acres (3.62 to the Limited Partnership in 2000 and 1.2
for a senior citizens center in 2005) at more than $51,000 below fair market value. This
noncompliance occurred because the Commission lacked adequate procedures and controls to
ensure that it complied with its contract and HUD’s regulations. As a result, HUD’s interest in
the remaining land, valued at more than $194,000, is not secured, and fewer funds are available
to benefit the Commission’s residents.


 The Commission Did Not File a
 Declaration of Trust

               In July 1997, the Commission purchased 13.47 acres of land adjacent to its
               elderly housing project. To finance the land purchase, the Commission obtained
               two promissory notes totaling $240,000 (see finding 1). It used the funds
               normally reserved for its payments in lieu of taxes to the City to pay the principal
               and interest payments on the two loans. As of April 2007, the Commission had
               not filed a declaration of trust on the land as evidence that it would not convey or
               encumber the property as required by its contract with HUD.

 The Commission Improperly
 Disposed of Project Assets

               The Commission sold 3.62 of the 13.47 acres of land for $54,000 to the Limited
               Partnership in November 2000 without obtaining an appraisal to determine the
               fair market value of the land. According to the Bank’s vice president, the amount
               paid by the Limited Partnership was based on an August 2000 appraisal value of
               $215,000 for 9.85 acres of land and the minimum loan pay down amount needed
               to satisfy the Bank’s loan-to-value analysis on the existing loans. Therefore, the
               purchase price of the land was established as $54,000.

               However, using the same August 2000 appraised value of $215,000, which
               established the value per acre to be $21,827 ($215,000 divided by 9.85), we
               determined that the sales price of the land should have been at least $79,015
               ($21,827 times 3.62). Therefore, the Commission sold the 3.62 acres of land for
               $25,015 less than the 2000 appraised value ($79,015 minus $54,000).

               Further, the Commission sold another 1.2 acres of land for $1 for a senior citizens
               center in July 2005. Using the $21,827 per acre appraisal, we determined that the
               value of the land should have been $26,193 ($21,827 times 1.2) not considering
               any increased value of the land since 2000 due to improvements made. As a

                                                10
          result, the Commission sold the 1.2 acres of land for $26,192 less than the 2000
          appraised value ($26,193 minus $1).

          The Commission’s former executive director said that he believed that since the
          land was purchased using the payments in lieu of taxes normally paid to City, the
          land was not subject to the terms and conditions of the Commission’s contract
          with HUD. The Commission did not obtain HUD’s approval to sell the land.

          As a result, the Commission disposed of 4.82 (3.62 plus 1.2) acres of land for
          more than $51,000 below fair market value ($25,015 plus $26,193). Further,
          HUD lacks assurance that the proceeds from the disposition or future use of the
          remaining 8.65 (13.47 minus 4.82) valued at more than $194,000 will benefit the
          Commission’s residents.

Recommendations

          We recommend that the director of HUD’s Detroit Office of Public Housing
          require the Commission to

          2A.     File a declaration of trust on the 8.65 acres of land valued at $194,600 to
                  safeguard HUD’s interests and prevent future conveyances or encumbrances
                  without HUD’s approval.

          2B.     Submit the declaration of trust to HUD for its review.

          2C.     Reimburse its Public Housing program $51,208 from nonfederal funds for
                  the sale of the 4.82 acres at below fair market value.

          2D.     Implement adequate procedures and controls to ensure that it follows its
                  contract and/or HUD’s regulations regarding the filing of declarations of
                  trust and the disposition of property.




                                           11
Finding 3: The Commission Violated HUD’s Section 8 Requirements
                      Regarding Its Nonprofit
The Commission violated HUD’s Section 8 requirements when it performed housing quality unit
inspections of Deer Meadows. Also, it did not always perform timely annual unit inspections or
maintain documentation to support that Deer Meadows’ contract rents were reasonable. The
improper unit inspections and lack of supporting documentation for rent reasonableness
determinations occurred because the Commission did not have adequate procedures and controls
to ensure that its Section 8 program met HUD’s requirements. As a result, the Commission
improperly received Section 8 administrative fees related to its nonprofit.


  The Commission Created a
  Conflict of Interest


              In December 2001, the Commission obtained the services of an experienced
              management firm to manage Deer Meadows after construction was completed.
              After the management agreement expired in July 2004, the Commission took over
              Deer Meadows’ on-site management. The Commission charged its Limited
              Partnership monthly maintenance and management fees for managing Deer
              Meadows.

              In addition to managing Deer Meadows, the Commission inspected its Section 8
              housing units and was required to perform contract rent reasonableness reviews
              and rent negotiations. HUD’s regulations at 24 CFR [Code of Federal
              Regulations] 982.352 require a public housing agency with its own housing or
              substantially controlled housing to use the services of an independent party
              approved by HUD to perform unit inspections before assistance can be provided.
              HUD also requires that contract rent reasonableness and rent negotiations be
              handled by the independent party. By failing to comply with HUD’s
              requirements regarding unit inspections, rent reasonableness, and rent
              negotiations, the Commission not only violated HUD’s requirements, but also
              created a conflict-of-interest relationship.

 The Commission Did Not
 Perform Timely Inspections

              The Commission did not always perform timely annual inspections of Deer
              Meadows’ Section 8 housing units. For the 24 annual unit inspections reviewed
              for the period June 2006 to January 2007 related to Deer Meadows, 14 (58
              percent) were not performed within 12 months of the previous inspection (range
              of from one to nine months overdue). According to 24 CFR [Code of Federal
              Regulations] 982.405, the Commission must inspect the unit leased to a family at
              least annually during assisted occupancy.

                                              12
The Commission Did Not
Maintain Rent Reasonableness
Documentation

           The Commission did not maintain the results of its rent reasonableness reviews
           for its nonprofit development. According to the Commission’s assistant director,
           the Commission did not maintain copies of the rent reasonableness reviews for
           Deer Meadows as of May 2007. However, she said that the Commission will start
           maintaining the required documentation. Further, since the Commission managed
           Deer Meadows, there was no independent party to assist the households with rent
           negotiations to comply with HUD’s regulations. Deer Meadows’ contract rents
           were within HUD’s fair market rent requirements as of May 2007.

The Commission’s Procedures
and Controls Had Weaknesses

           The Commission lacked adequate procedures and controls to ensure that federal
           requirements were appropriately followed. Further, the Commission’s board did
           not ensure that when the executive director retired in January 2006, there was
           sufficient staff to manage the Commission’s daily operations. The Commission’s
           assistant director, who was only employed part-time, became the interim
           executive director. In addition to managing the daily operations of the
           Commission, she was responsible for performing Deer Meadows’ annual unit
           inspections. However, as of May 2007, she had received no training regarding
           performing housing quality standards inspections.

           As previously mentioned, the Commission violated HUD’s Section 8
           requirements when it performed housing quality unit inspections while managing
           Deer Meadows. Also, it did not always perform timely annual inspections or
           maintain documentation to support rent reasonableness determinations. As a
           result, HUD lacks assurance of the reliability of the housing quality unit
           inspections and that contracted rents paid were reasonable.

           The Commission had provided Section 8 assistance at Deer Meadows without an
           independent third party performing unit inspections and rent reasonableness
           reviews since it took over on-site management in July 2004. From July 2004 to
           April 2007 (34 months), the Commission paid more than $186,000 in housing
           assistance and received $31,434 in administrative fees related to Deer Meadows.

           HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.152(d) state that
           HUD may reduce or offset any administrative fee to a public housing authority, in
           the amount determined by HUD, if the authority fails to perform its administrative
           responsibilities correctly or adequately under the Section 8 program. Given the
           Commission’s substantial noncompliance with HUD’s requirements, it should not

                                           13
          receive the Section 8 administrative fees. Additionally, unless the Commission
          improves its operations for the Section 8 program, we estimate that it could
          improperly receive $11,094 ($31,434 divided by 34 months) in Section 8
          administrative fees for Deer Meadows during the next 12 months.

Recommendations

          We recommend that the director of HUD’s Detroit Office of Public Housing require
          the Commission to

          3A.     Reimburse its program $31,434 in Section 8 administrative fees received
                  related to its management of Deer Meadows.

          3B.     Implement adequate procedures and controls to ensure compliance with
                  HUD’s regulations regarding housing quality standards, rent
                  reasonableness, and rent negotiations related to Deer Meadows. By
                  implementing adequate procedures and controls, the Commission should
                  help to ensure that $11,094 in Section 8 administrative fees is appropriately
                  paid related to Deer Meadows.

          3C.     Discontinue performing the housing quality standards inspections for Deer
                  Meadows and contract with an independent third party to perform housing
                  quality standards inspections, rent reasonableness reviews, and rent
                  negotiations for Deer Meadows’ Section 8 households to ensure
                  compliance with HUD’s requirements.




                                           14
                         SCOPE AND METHODOLOGY

To accomplish our objective, we reviewed

      Applicable laws; regulations; HUD’s program requirements at 24 CFR [Code of Federal
       Regulations] Parts 85, 941, 970, and 982; Office of Management and Budget Circulars A-
       87 and A-133; and the Internal Revenue Service’s requirements at 26 CFR [Code of
       Federal Regulations] Part 1.

      The Commission’s accounting records, operating budgets, general ledgers, bank
       statements and canceled checks, and check vouchers and invoices for fiscal years 1999
       through 2006; promissory notes for 1997 and 2002; warranty deeds and property
       appraisals for 1997 and 2000; annual audited financial statements for fiscal years 1996
       through 2005; annual contributions contract with HUD; by-laws; board meeting minutes;
       policies and procedures; and applications for financial assistance to the State of Michigan
       and the Federal Home Loan Bank.

      HUD’s files for the Commission.

      The City’s ordinance A-29 and applicable amendments.

      The Corporation’s articles of incorporation, by-laws, and board meeting minutes; and
       accounting records, general ledgers, financial statements, and bank statements for fiscal
       years 1999 through 2006.

      The Limited Partnership’s agreements, warranty deed, and annual audited financial
       statements and compilation reports for calendar years 2001 though 2005.

We also interviewed the Commission’s current employees, board president, and its former
executive director; HUD staff; the vice president for the Bank; and the county assessor for
Charlevoix County, Michigan.

We performed our on-site audit work between September 2006 and May 2007 at the
Commission’s offices located at 829 South Park Street, Boyne City, Michigan. The audit
covered the period October 1, 2004, through September 30, 2006, and was expanded as
determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                               15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               16
Significant Weakness


           Based on our review, we believe the following is a significant weakness:

               •   The Commission lacked adequate procedures and controls to ensure that it
                   complied with its contract and/or HUD’s regulations regarding the
                   pledging of the Commission’s assets, protecting of HUD’s interest in
                   property through a declaration of trust, disposition of real property, and
                   receipt of Section 8 administrative fees related to its affiliated entities (see
                   findings 1, 2, and 3).




                                             17
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                Recommendation                            Funds to be put to
                    number              Ineligible 1/       better use 2/
                      1A                                     $137,079
                      1C                                        24,000
                      2A                                      194,600
                      2C                  $51,208
                      3A                   31,434
                      3B                                         11,094
                     Totals               $82,642              $366,773


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     which are specifically identified. In these instances, if the Commission implements our
     recommendations, it will remove the pledging of the Commission’s assets, protect
     HUD’s interest in property through a declaration of trust, and ensure that Section 8
     administrative fees related to Deer Meadows are earned appropriately. Once the
     Commission successfully improves its controls over its pledging of assets and Section 8
     administrative fees, this will be a recurring benefit. Our estimates reflect only the initial
     year of these benefits.




                                              18
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         19
Ref to OIG Evaluation   Auditee Comments




                         20
Ref to OIG Evaluation   Auditee Comments




                         21
Ref to OIG Evaluation   Auditee Comments




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 1




                         23
Ref to OIG Evaluation   Auditee Comments




                         24
                        OIG’s Evaluation of Auditee Comments

Comment 1   Our recommendation for the reimbursement of the Section 8 administrative fees is
            based on: (1) the existence of a conflict of interest due to the Commission’s
            failure to obtain an independent third party to perform housing quality standards
            inspections of Deer Meadows’ housing units, (2) the lack of documentation to
            support the Commission’s rent reasonableness reviews, and (3) the Commission’s
            untimely annual unit inspections of Deer Meadows’ Section 8 housing units.
            Since HUD has not issued a schedule that identifies the distribution of the Section
            8 administrative fees applicable to such tasks as unit inspections and rent
            reasonableness reviews, our recommendation cites the entire administrative fees
            received by the Commission related to Deer Meadows.




                                            25
Appendix C

                            FEDERAL REQUIREMENTS

Finding 1

Section 401 of the contract with HUD prohibits the Commission from using funds in its general
fund for non-HUD development activities without prior HUD approval. Section 422 of the contract
prohibits any bank loans from any source not specifically provided for under the contract with
HUD.

Section 313 of the contract with HUD states: “Unless and until all temporary notes, advance notes,
permanent notes, and all other indebtness of the local authority to the public housing authority have
been fully paid (except repayment of annual contributions), and all bonds issued in connection with
the project have been fully paid and retired or monies, sufficient for the payment and retirement
thereof in accordance with the terms of such bonds, have been deposited in trust for such purpose
with the fiscal agent, the local authority shall not transfer, convey, assign, lease, mortgage, pledge,
or otherwise encumber, or permit or suffer any transfer, conveyance, assignment, leasing mortgage,
pledge, or other encumbrance of such project, any appurtenances thereto, any rent, revenues,
income, or receipts there from or in connection therewith, or any of the benefits or contributions
granted to it by or pursuant to this contract, or any interest in any of the same.”

Section 506 of the contract with HUD defines substantial default. Events of substantial default
include the default of any of the provisions of section 313.

Finding 2

Section 420 of the contract with HUD requires that the Commission promptly execute and deliver a
declaration of trust or similar document upon acquisition of the site of any project to protect the
interests of HUD and to prevent a conveyance or encumbrance without expressed HUD approval.

Section 308 of the contract with HUD states that excess real property must be sold at public sale for
not less than fair market value unless other disposition or method of disposition is approved by
HUD.

Section 312 of the contract with HUD states that the project should include all real property therein
which is acquired and held in connection with such project and all personal property, tangible and
intangible, and interest therein which is acquired and held in connection with such project. All
property, immediately upon acquisition by the local authority, shall become a part of such project
and shall be subject to the terms, covenants, and conditions of this contract.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 970.9 state that HUD may
authorize negotiated sales for less than fair market value for reasons found to be in the best
interests of the Commission, the federal government, or the community where permitted by state
law.

                                                  26
Finding 3

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.352 require a public housing
agency with its own housing or substantially controlled housing to use the services of an
independent third party approved by HUD to perform unit inspections before assistance can be
provided. HUD also requires that contract rent reasonableness and rent negotiations be handled
by the independent third party.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.405 state that the Commission
must inspect the unit leased to a family at least annually during assisted occupancy.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 982.507 state that the Commission
may not approve a lease until it determines that the initial rent is reasonable. The Commission
must redetermine the reasonableness of the rent before an increase in the rent if there is a 5
percent decrease in the published fair market rent in effect 60 days before the contract
anniversary or if directed by HUD. At all times during the assisted tenancy, the rent may not
exceed the reasonable rent as most recently determined or redetermined by the Commission.
The Commission must determine whether the rent to the owner is reasonable in comparison to
rent for other unassisted units.

HUD’s Housing Choice Voucher Program Guidebook 7420.10, chapter 9, page 9-11, requires
the Commission to provide staff with written guidance describing how the rent reasonableness
database will be maintained and how rent reasonableness determinations will be made and
documented. Clear performance standards should be set, and there should be monitoring and
quality control performed throughout the year with training and feedback regarding both good
and inadequate performance.




                                              27
